No.

 

 

IN THE SUPREME COURT OF THE UNITED STATES

DEMETRIUS MORANCY,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eleventh Circuit

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this
25th day of September, 2020, copies of the Petition for Writ of Certiorari and the
Motion for Leave to Proceed In Forma Pauperis were sent by United States mail to
the Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.

All parties required to be served have been served.

x Jp b-
Dane K. Chase, Esquire
Florida Bar Number: 0076448
